HHS/OIG, Audit -"Fee-For-Service Family Planning Claimed by Colorado,"(A-07-04-01008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Fee-For-Service Family Planning Claimed by Colorado," (A-07-04-01008)
January 13, 2005
Complete
Text of Report is available in PDF format (268 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if Colorado claimed Medicaid
fee-for-service family planning costs for FY 1999 in accordance with Federal
laws and regulations.  We found that Colorado did not claim these
costs in accordance with Federal laws and regulations.  Colorado claimed
$1,153,986 that did not qualify as family planning costs, which caused $454,786
in excessive Federal Medicaid reimbursement.  Colorado treated negative
adjustments as paid claims and classified nonfamily planning claims as family
planning because its computer programs did not ensure that negative adjustment
amounts were subtracted instead of added or that nonfamily planning costs were
extracted from all inpatient claims.  We recommend that Colorado:  (1)  refund
$454,786 to the Federal Government, (2) ensure claims for family planning are
based on accurate and reliable information, and (3) review the $12.1 million
in Federal reimbursement received for family planning services under fee-for-service
for FY 2000 to December 2003 for errors and refund unallowable costs.  Colorado
agreed with our findings and recommendations.